 

Spare Or INDIANA OFFICE OF THE ATTORNEY GENERAL, Curtis T. Tiny, Ja,
302 West WaAsuineron Srreer, IGCS Stn Floor Aronney GENERAL
Trptanaronis, InpiaNna 46204

October 2, 2019

Scott Harris, Clerk

Supreme Court of the United States
One First Street, N.E.

Washington, D.C, 20543

Re: Patterson v. Indiana Family & Social Services Administration, No. 19-181
Dear My. Harris,

As counsel of record in the above-referenced case, I am responsible for
preparing a response to the petition for writ of certiorari, currently due October 9,
2019. lam writing to request an additional 30 days, to November 8, 2019, to complete
and file that response. This is Respondent's second request for an extension in this
case. Petitioner's counsel of record, Dennis Frick, has been informed of this
application for an extension of time, and he responded that he will not file an objection
to the application.

Even giving this matter priority, counsel for Respondent will be unable to
prepare a satisfactory response to the petition by the current date owing to |
obligations in other cases in this Court, the Seventh Circuit Court of Appeals, and |
the U.S. District Court for the Southern District of Indiana. An additional .
enlargement of time of 30 days is reasonably necessary for Respondent to prepare an !
adequate response. |

Thank you for your consideration.
Sincerely, ‘
Unit B/C.
Wha M. Fisher

Solicitor General of Indiana
Counsel of Record for Respondent

 

ce: Dennis Kay Frick

‘PrLEPHONE (317) 232-6201 - Fax (317) 232-7979
